<html>
<title> - THE REAUTHORIZATION OF THE JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE REAUTHORIZATION OF THE JOHN F. KENNEDY CENTER FOR THE PERFORMING 
                                  ARTS 

=======================================================================

                                (110-74)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-172 PDF                       WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)



















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Kaiser, Michael M., President, John F. Kennedy Center for the 
  Performing Arts................................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    17
Carney, Hon. Christopher P., of Pennsylvania.....................    18
Cohen, Hon. Steve, of Tennessee..................................    20
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    21
Oberstar, Hon. James L., of Minnesota............................    22

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kaiser, Michael M................................................    23

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               THE JOHN F. KENNEDY CENTER REAUTHORIZATION

                              ----------                              


                      Thursday, September 27, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Present: Representatives Norton, Cohen and Graves.
    Ms. Norton. I am pleased to extend a warm welcome to 
Michael Kaiser, President of the John F. Kennedy Center for the 
Performing Arts, a world-recognized preeminent performing arts 
institution and iconic landmark here in the District of 
Columbia, our Nation's Capital. Mr. Kaiser has presided over 
the Center's transformation both in architecture and in 
programming. The building's 1.5 million square feet on 17 acres 
has been upgraded, refigured, and transformed to more easily 
and graciously accommodate the Center's 2 million annual 
visitors and patrons.
    Mr. Kaiser has given committed and personal attention not 
only to the Center's programmatic side, but also to the more 
mundane bricks and mortar that make up the Presidential 
memorial, which we must remember is what the Kennedy Center is.
    Mr. Kaiser has not lost sight of the important symbolism of 
this building as a memorial to President John F. Kennedy, and 
we are grateful for his vigilance.
    Today we will begin the process of reauthorizing 
appropriations for the Center for a period of 5 years. The 
appropriations will support the capital needs as well as the 
operations and maintenance of the building. Operation costs 
include utilities, fire protection and systems, ADA 
requirements, heating, ventilation, cooling and plumbing. 
Capital requirements are centered around renovation of the 
larger spaces, such as the Grand Foyer, the entire roof, and 
the reconfiguring of the plaza at the front of the building, 
something that we have long sought. Traffic flow and pedestrian 
access were improved by adding a grand staircase and a new 
vehicular circulation pattern.
    We are pleased to hear from the president of the Center, 
and I especially want to hear how the Center is becoming more 
energy efficient, one of the priorities of our Subcommittee.
    Mr. Kaiser, welcome.
    Mr. Kaiser. Thank you very much.
    Ms. Norton. I want to hear next from our Ranking Member, 
Mr. Graves.
    Mr. Graves. Thank you, Madam Chairman, for holding today's 
hearing on the reauthorization of the John F. Kennedy Center 
for the Performing Arts.
    Let me also thank our witness, Mr. Kaiser from the Kennedy 
Center, for being here today. We invited you here to talk about 
the current condition of the facilities and the future needs of 
the Kennedy Center.
    The Kennedy Center has millions of visitors every year who 
come to enjoy the world-class performances in its theaters and 
public spaces. Maintaining a facility that welcomes visitors 
and performers has proven a difficult task, and today we seek 
to ensure the upkeep and modernization of the Kennedy Center.
    The popularity of this institution has contributed to the 
wear and tear on the facilities. In the 36 years since the 
Kennedy Center first opened, it stores millions of visitors who 
have enjoyed performances in the nine theaters and various 
public spaces of the Center.
    The authorization request submitted by the Kennedy Center 
includes plans to upgrade fire safety systems and stairwells, 
increase accessibility, and upgrade and maintain basic building 
features. Major projects also include the replacement of the 
Curtain Wall and panels of exterior marble that have been 
discolored or damaged. Renovations that would bring the Concert 
Hall up to standard for a national orchestra are also planned.
    By maintaining the facility and proactively making repairs, 
the Center will be able to prevent major problems in the 
future. Long-term projects include the renovation of the 
theater lab and the terrace theater with improved 
accessibility, and update the theatrical systems. The Theater 
Lab will be made more useful and the infrastructure issues will 
be addressed. These two theaters would be updated towards the 
end of the 5-year authorization period.
    While the Kennedy Center has had its fair share of 
construction management problems in the past, I am pleased to 
see that it has instituted a number of reforms recommended by 
this Committee and brought its more recent projects to 
completion on time and on budget.
    So I look forward to this hearing. I look forward to 
hearing from our witness about the procedures in place to use 
public and private funds, for capital asset acquisition and 
maintenance, and to ensure the fiscal responsibility to 
maintain.
    Thank you again, Madam Chair, for holding this hearing, and 
I look forward to it.
    Ms. Norton. Thank you, Mr. Graves.
    Now we will hear from our witness, President Kaiser.

  STATEMENT OF MICHAEL M. KAISER, PRESIDENT, JOHN F. KENNEDY 
                 CENTER FOR THE PERFORMING ARTS

    Mr. Kaiser. Thank you very much, Madam Chairman. It is a 
great pleasure to be here today, and I am grateful for the 
tremendous support of this Subcommittee over my 6-1/2 years as 
president of the Kennedy Center. Indeed the Kennedy Center has 
received several authorizations through your Subcommittee since 
1995. Over the last 12 years, the institution has made enormous 
progress in making necessary capital repairs to the entire 
memorial and improvement in its operations and maintenance.
    Our current authorization bill expires on September 30, 
2007 and the Center is asking the Subcommittee's consideration 
for a proposed 5-year reauthorization spanning fiscal years 
2008 to 2012. I will describe the Center's plan for this time 
span shortly. But for the benefit of all Subcommittee Members, 
I would like to take a minute to describe briefly the breadth 
of the Center's activities and outreach across the country and 
across the world.
    The Kennedy Center is both our national cultural center and 
a living memorial to President John F. Kennedy. I emphasize the 
world "living" since there is a vitality to the memorial and 
the institution that far exceeds anything that could have been 
envisioned when the Center was chartered by Congress in 1958 
under President Dwight D. Eisenhower as the national cultural 
center.
    Each year, the Kennedy Center reaches over 2 million people 
with more than 2,000 performances in all performing arts 
disciplines. Every season, our focus is on developing 
programming that achieves national and international acclaim as 
is befitting our role as a national cultural center.
    But our performing arts activities are not limited to the 
Washington, D.C. Area. We are committed to touring productions 
to all 50 states to make them available to all Americans. The 
National Symphony Orchestra, a vital part of the Kennedy Center 
for 20 years, is fulfilling this mandate by expanding its 
national touring activities. The Kennedy Center Theater for 
Young Audiences on Tour program brings the best of family and 
children's theater to 107 cities in 31 States and serves over a 
quarter million people each year. The Center is committed to 
making arts accessible to everyone and presents free 
performances every day of the year on our Millennium stage. 
These performances are also available free to every American 
via live Internet broadcast.
    The Kennedy Center also is committed to arts education and 
has created one of the most extensive arts education programs 
in the world. We have committed $125 million over 5 years in 
this effort and serve 11 million people nationwide annually. We 
now train 25,000 teachers annually to bring the arts into the 
classroom at all levels. Our Distance Learning Initiative, 
which touches more than 1 million teachers and students each 
year, enables classrooms to experience world-class performances 
and to engage in discussions with artists at the Kennedy 
Center. Our Partners in Education program mentors relationships 
between arts organizations and their community school systems 
with 105 organization teams and school systems in 46 States and 
the District of Columbia.
    The Kennedy Center also provides training to talented young 
Americans who aspire to careers in dance, music, conducting and 
set design. Our American College Theater Festival identifies 
the next generation of actors, designers and playwrights, with 
20,000 students from over 900 colleges participating.
    The Kennedy Center has instituted two programs which we 
hope will change the landscape of the arts in America. The 
Institute for Arts Management, which prepares arts managers for 
jobs running major institutions throughout the world, and the 
Capacity Building Program for Culturally Specific Arts 
Organizations, which trains managers of African American, 
Latino, Asian American and Native American arts organizations. 
We have also instituted international arts management programs 
in Mexico, China, Pakistan and the 22 Arab nations.
    The extensive programming and education activities that the 
Center presents and provides are supported through private 
contributions of almost $50 million annually, not counting 
other government grants or endowment earnings which total an 
additional $20 million each ear. In addition, the Center earns 
approximately $65 million each year from ticket sales, parking 
fees, food service, space rental and our gift shops.
    In support of our artistic and educational programming, the 
Center takes seriously its responsibility to keep the building, 
a Federal asset, in the best condition possible. The Kennedy 
Center building consists of 1.5 million square feet of usable 
floor space on 17 acres of land. The building contains nine 
theaters, two public restaurant facilities, nine special event 
rooms, five public galleries, halls and foyers, and 
approximately 50,000 square feet of administrative offices.
    Let me assure you that the Kennedy Center will continue to 
operate a safe, secure, and well-maintained building for all of 
its patrons and visitors and provide preventive maintenance as 
well as routine and emergency repairs and replacement of 
building systems. To this end, the Center received a Federal 
appropriation of approximately $30 million this year. The 
direct Federal funding provided the Kennedy Center is used for 
both the operations and maintenance and for capital repair and 
restoration of the Presidential monument. Direct Federal 
funding may not be used for programming expenses. The operating 
and maintenance account is for the maintenance, repair, and 
security of the entire facility and grounds. This includes 
utilities, fire protection and sprinkler systems, elevators and 
handicap lift systems, and a myriad of electrical, mechanical, 
heating, ventilation, air conditioning, plumbing and sanitary 
water systems.
    In addition to the maintenance and operation of these 
systems, this account also funds small renovations and the 
administration of 20,000 feet of offsite warehouse space. The 
security department provides 24-hour protection every day of 
the year, emergency response, key and access control, alarm 
system, monitoring, dignitary protection and crowd management.
    In addition to these personnel services, the department 
maintains a variety of security and safety systems, such as 
electronic security, vehicular barriers and fire alarm and fire 
suppression systems.
    The Center is always looking for opportunities to make the 
memorial more energy efficient. One example of our progress is 
the completion of an energy savings performance contract which 
has resulted in substantial energy savings. We believe this 
reauthorization proposal will accommodate anticipated cost 
escalation as well as critical minor repair projects and 
increases relating to employee salaries and benefits, utilities 
and contracted services, including security, housekeeping, and 
ground services and equipment maintenance. The Center's capital 
repair and restoration account addresses the larger renovations 
to the infrastructure of the memorial.
    During the past 9 years, much has been accomplished. In 
1997, the Center reopened its renovated state-of-the-art fully 
accessible Concert Hall. In 2003, the opera house was also 
completely renovated to address fire and life safety issues and 
accessibility. In 2006, we opened our new family theater that 
offers a completely modern accessible venue for youth and 
family productions. And currently the Eisenhower Theater is 
undergoing its first full renovation since it opened in 1971 
with improvements to life safety, building systems and 
accessibility. The Grand Foyer has received a complete 
overhaul. The Center has installed a new fire alarm management 
system and public address system for the entire building.
    Rehabilitation and modernization of the Center's elevators 
is in progress, with 10 completed to date. The Center conducted 
a comprehensive survey to identify all asbestos-containing 
materials in the building and has implemented an ongoing 
inspection and maintenance program, including substantial 
abatement activity. The entire roof and roof terrace were 
replaced and new safety railings were installed. Likewise, the 
marble deck on the plaza level was removed and replaced with 
new granite paving.
    Perhaps our largest capital improvement has been to the 
site and grounds. The new circulation provides free-flow 
traffic movement to the garage, additional garage entrances and 
exits, and direct access to the Potomac Expressway from the 
Kennedy Center site.
    Pedestrian access was improved by replacing the steep ramp 
with a monumental stairway and a fully accessible walkway. The 
site was also completely relandscaped and new lighting of the 
building and the grounds were installed. To heighten security, 
an electronic security system, including closed-circuit 
cameras, has been installed throughout the building and 
grounds. Vehicular bollards were installed at the entrance to 
the service tunnel. The entire key and access control system 
was upgraded. A new security operation Center was installed.
    To prepare for this reauthorization proposal, the Center 
completed a full update of its comprehensive building plan with 
the latest information of the facility's condition and need for 
improvement. A team of architectural and engineering 
consultants surveyed the entire building and recommended 
upgrades based on the current needs and conditions, provided 
cost estimates and organized the improvements into a new 
implementation plan. This plan reflects the Center's continued 
priorities of access, of accessibility and life safety, as well 
as facility infrastructure.
    The completion of life-safety efforts identified in 
previous plans, such as installation of sprinklers in the roof 
terrace level and the renovation of the Eisenhower Theater, 
take precedence in the near future.
    Over the authorization period, the Center's capital repair 
implementation plan includes installation of sprinkler systems 
and replacement of fire doors on the roof terrace level, as 
well as minor architectural upgrades such as carpet 
replacement, wall and ceiling finishes and new lighting; 
renovation of miscellaneous toilet rooms throughout the 
building to address accessibility issues and to update fixtures 
and finishes; improvements to exit stairwells, including 
upgrades to stair treads, handrails, lighting, signage, 
ventilation, finishes and doors, and upgrades to door hardware 
such as handles and openers to meet accessibility requirements.
    In the longer term, as the life safety and accessibility 
work throughout the facility is completed, the focus will shift 
to facility infrastructure improvements. These projects will 
include replacement of the Curtain Walls, which involves 
replacing all of the large floor-to-ceiling windows and the 
gaskets in the Grand Foyer, Roof Terrace, Hall of States and 
Hall of Nations; repairs to the exterior marble where panels 
have become broken or discolored and joints have deteriorated; 
renovations to areas in the south block underneath the Concert 
Hall which were not addressed during the larger Concert Hall 
renovation. In addition, this project will address some 
environmental issues, instrument storage locations on the stage 
and in the upper levels of the auditorium. Significant work on 
aging mechanical, electrical and plumbing systems will also be 
instituted.
    The Kennedy Center's building systems primarily include 
original equipment. And although maintained and serviced 
regularly to ensure proper function, these elements not 
previously in the theater renovation projects are reaching the 
end of normative service life and are showing signs of failure 
and deterioration. This reauthorization proposal will allow the 
Center to embark on a systematic rehabilitation campaign. 
Mechanical system upgrades will include repair, refurbishment 
or replacement of heating and cooling equipment such as 
boilers, air-handling units, humidifiers, pumps, valves and 
piping. Plumbing systems will also receive major upgrades. The 
electrical systems will receive a complete overhaul, including 
replacement of aging electrical wiring, panels and devices. The 
emergency power transfer switches will be replaced and safety 
and protective devices will be tested and upgraded as 
necessary. Upgrades also will be made to technical state 
systems, including various cyclical replacements, audio-visual 
systems and rigging components. These projects, though not 
obvious to the public, are critical to the continued safe and 
efficient operation of the Center.
    Two additional projects affecting public spaces will be 
initiated toward the end of this 5-year period. The renovation 
of the Theater lab and the Terrace Theater. The Theater Lab, a 
flexible black box theater space, will be renovated to create 
permanent walls, address sound transmission problems and 
upgrade finishes and building infrastructure. The Terrace 
Theater, over 30 years old, will receive improvements in 
accessibility, seating, finishes, patron circulation and 
building and theatrical system infrastructure.
    Accessible seating is currently only available in the rear 
of the theater. While this is not a violation of accessibility 
laws, it does not conform with our standards of service to 
people with disabilities. It would be ideal to provide 
additional disperse seating.
    I should note that project design will start during this 5-
year period, but the bulk of the expense, including 
construction expense, will fall in 2013 and a subsequent 
authorization. These projects to be completed over the next 5 
years and many other long-range projects and planning 
constitute an aggressive plan designed to keep the Center 
operating in a way befitting a Presidential memorial.
    Let me finish by expressing gratitude for this opportunity 
to update you on the many activities of the Kennedy Center. I 
thank the Subcommittee for its continued support of the Center 
and it is my hope that your Subcommittee and Congress will 
receive this proposal favorably.
    I am pleased to answer any questions. Thank you very much.
    Ms. Norton. Thank you, Mr. Kaiser.
    Before I proceed to questions, I should ask Mr. Kuhl if he 
has any opening statement to make.
    Mr. Kuhl. Thank you, Madam Chairman. I don't have any 
opening statement, but thank you for the opportunity. I was 
just curious if the Chairwoman was going to organize a 
Subcommittee trip to the Kennedy Center so we could review 
personally the proposed project.
    Ms. Norton. And do you have a performance in mind, Mr. 
Kuhl?
    Mr. Kuhl. No performances other than Mr. Kaiser.
    Ms. Norton. I am sure Mr. Kaiser would be pleased to do 
just that.
    Mr. Kaiser. We would be thrilled to invite all of you to 
the Center at an appropriate time for you.
    Mr. Kuhl. Great. Just contact your office.
    Mr. Kaiser. Absolutely.
    Mr. Kuhl. Okay. Thanks, Madam Chairman.
    Ms. Norton. Of course.
    Mr. Kaiser, as you will recall, we had a hearing and had 
both you and the director of the Smithsonian here because we 
are looking at both the core differences--one is centrally 
funded by the Federal Government and, of course, the Kennedy 
Center is not. What is your annual fund raising goal?
    Mr. Kaiser. Our annual fundraising goal is approximately 
$50 million. In addition, we raise about $20 million from other 
government grants and from our endowment funding. So it is a 
total of $70 million of unearned income.
    Ms. Norton. What is your own policy regarding board 
membership? Obviously you have a large board. Many of them are 
from the private sector, I am pleased to, report because that 
is where the money is, and therefore many of them are involved 
in businesses of all kinds.
    How do you avoid some of the problems that the Smithsonian 
had, not so much with its board but with conflicts of interest?
    Mr. Kaiser. Well, as you know, Madam Chairman, our board is 
appointed both by the President of the United States and by the 
leadership of Congress. But we ask all of our board members to 
sign a conflict-of-interest statement. And on this conflict-of-
interest statement, they have to reveal if they have any 
business dealings or other dealings or ownership of any of the 
major vendors who service the Kennedy Center. So far there has 
been absolutely no conflict of interest. But we do make, each 
year, each of our board members sign, and, I should say, also 
the senior staff.
    Ms. Norton. Do you have a recusal process in case something 
is----
    Mr. Kaiser. Yes. So far we have not had to use that recusal 
process, but we would obviously have to recuse any board member 
from any decision involving a vendor where there was a conflict 
of interest.
    Ms. Norton. Well, far from being critical of the way in 
which the Kennedy Center operates, my own view--and I have a 
bill that is going to be introduced shortly--is that the 
Smithsonian itself cannot operate differently from other major 
arts institutions with strong attachments to the private 
sector. That kind of attachment obligates people not only to 
sit on boards and smile, but to do what they can to bring 
resources to the institution. And that appears to be happening 
with the Kennedy Center. You have a large board, I understand. 
About 60 people or so.
    Mr. Kaiser. Correct.
    Ms. Norton. Is the size of the board related to the 
resource need of the Center, or why is the board so large?
    Mr. Kaiser. The board, I think, is large because there are 
36 members appointed by the President and then there are 14 
Members of Congress. And I think to maintain some level of 
balance, I think that was the reason why the board was created.
    Ms. Norton. Do you find that size a good size for the 
board?
    Mr. Kaiser. We find it very acceptable to us. To be frank, 
we work very hard to maintain a personal relationship with each 
member of the board and to make sure that each member of the 
board feels involved and can get involved in specific projects, 
rather than leaving all of the communication to happen at board 
meetings.
    Ms. Norton. How frequently has the Kennedy Center used the 
services of the IG for the Smithsonian of which you are a part, 
of course? For example, typically Federal agencies ask for 
opinions ahead of time with respect to large contracts to make 
sure that there are no issues that Congress would call them to 
account on or the like. Is that something that the Kennedy 
Center does?
    Mr. Kaiser. No. In fact, at one point in time, we were 
discussing using the IG for part of our audit process, our 
capital projects audit process. But the Smithsonian was not in 
a position to staff up that activity. And through discussions 
with the staff of this Subcommittee and with the Appropriations 
Subcommittee, we decided it was best for us to hire outside 
experts to audit our capital and our operations areas rather 
than to rely upon the Smithsonian IG. We simply could not work 
quickly enough through the IG's office.
    Ms. Norton. That is important information for us to have. 
And I certainly commend you for making sure that you were 
covered at least by outside auditors. The difficulty there is, 
of course, that there is no equivalent to the IG anywhere in 
the country and therefore Congress is dependent upon 
independent IGs. I just think the Committee will have to talk 
with other Subcommittees about how to make sure you have access 
if and when needed to those services. What is the naming policy 
of the Kennedy Center?
    Mr. Kaiser. The Kennedy Center is a Presidential memorial 
first and foremost, as you mentioned in your opening comments. 
Therefore, we do not have any naming of any spaces at the 
Kennedy Center, with one exception, and that is the Eisenhower 
Theater is named after President Eisenhower, since it was under 
his administration that the concept of a National Cultural 
Center was first approved by Congress. But no spaces in the 
Kennedy Center are named.
    Ms. Norton. So I take it that if someone approached you 
with a large amount of money--because naming--I don't blame 
people, they give a great deal of money--and said I want to 
name this or that part of the Kennedy Center, you would feel 
obligated to come to the Congress on that matter?
    Mr. Kaiser. We would feel obligated to say no, Madam 
Chairman. What we do is we direct our major donors, and we are 
fortunate to have major donors, to the underwriting of specific 
programs as opposed to the sponsorship of specific spaces at 
the Kennedy Center.
    Ms. Norton. And I do believe because it is a Presidential 
memorial, you will be able to find large donors who understand 
that there are other ways to let the public know that they have 
contributed, besides having their name imprinted on a 
Presidential memorial. That is hubris plus, I suppose.
    Mr. Kaiser. Yes. We are very grateful that we have been 
able to double our private fundraising over the last 6 years. 
So clearly there are enough opportunities for funders to find 
naming--in programming, as I said, rather than in spaces.
    Ms. Norton. Have you done that mostly with ticket sales, or 
how have you done it?
    Mr. Kaiser. No. That doubling is of pure private 
fundraising.
    Ms. Norton. Well, how have you done that?
    Mr. Kaiser. I could go through a long dissertation on how 
we do fundraising. It is a little bit like----
    Ms. Norton. How a fund-raiser do private fundraising 
without naming is of interest.
    Mr. Kaiser. Again, for larger donors, we focus on their 
supporting large individual programs. For example, we have 
individuals who sponsor our theater program or who sponsor our 
ballet program without asking them to name a space. These are 
annual grants rather than long-term capital grants.
    And then we have been able to get endowment grants from 
people who, again, would like to take a long-term position of 
supporting some of our areas. For example, we have one major 
donor, the largest donor of the Center, has given us an 
endowment to pay for the music director's salary of the Kennedy 
Center, to endow that salary level. So we work very hard to 
find ways to meet the needs of our donors, but we do not name 
spaces and we will not.
    Ms. Norton. Do you share--are you pretty apart from the 
Smithsonian or what----
    Mr. Kaiser. We are separate----
    Ms. Norton. I know you are separate. I am trying to find 
what kind of cross-fertilization there is between you and the 
Smithsonian.
    Mr. Kaiser. There is much discussion amongst many of my 
staff members with many staff members of the Smithsonian at the 
programming level. Our general counsel speak together, our 
chief financial officers speak together. So there is a 
tremendous amount of sharing at the staff level of information, 
and in a variety of departments, and we call upon their advice 
and guidance many times.
    Ms. Norton. Mr. Kaiser, I think that they need some sharing 
on your fundraising ability and how to do it in their own 
theater. They have a much larger set of cultural institutions 
to work with, and the Committee is very concerned that they 
have been constrained as a government institution is, but have 
not been nearly as creative in finding new funds.
    I have some more questions, but I am going to turn to 
others first. First, of course, to the Ranking Member, Mr. 
Graves. Does any other Member of the Committee have a question? 
Yes, Mr. Cohen.
    Mr. Cohen. Thank you. Thank you, Madam Chair. I just have 
a--just kind of going through your statement here, which I 
appreciate, Mr. Kaiser. You mentioned in your statement that 
you are committed to touring productions in all 50 States, and 
that the Center Theater for Young Audience, Kennedy Center, 
goes to 107 cities and 31 States. Do you know if you have taken 
any programs to Tennessee, to Memphis or to Nashville?
    Mr. Kaiser. Absolutely. In fact we brought the National 
Symphony to Tennessee just 2 years ago.
    Mr. Cohen. Where in Tennessee?
    Mr. Kaiser. I can get you a complete list. We did 150 
different performances and lecture demonstrations and master 
classes----
    Mr. Cohen. I am only interested in Tennessee. Really, in 
Memphis.
    Mr. Kaiser. In Tennessee----
    Mr. Cohen. How about Memphis.
    Mr. Kaiser. I would have to get that information, sir. I am 
sorry I don't have that information with me. But I am happy to 
give you a complete report of everything we do in your State.
    Mr. Cohen. Thank you. I would like to have that. And also I 
would like to have seen the Kennedy Center. Years ago I went to 
the Kennedy Center and went around some and was really awed by 
the beauty of it and magnificence. And then on Monday night, I 
went to the Magic 102.7 concert and Patti LaBelle was 
fantastic, and my friend Isaac Hayes was spectacular, and James 
Ingram was great. And we were in one of the halls there. I 
guess it was the--not the Opera Hall, but the concert--it was 
the Opera House. It was the smaller one to the left.
    Mr. Kaiser. That is the Concert Hall.
    Mr. Cohen. We were in that one. I wanted to see the Opera 
House. I thought it would be kind of interesting to see it, and 
I walked down and I told the security guard I was a Member of 
Congress and I would like to see the Opera House. And he told 
me it was closed, I couldn't see it. So I didn't get a chance 
to see it.
    There was a gentleman there named Major Harris and he was 
real nice. And he said, of course you can see it. But I went 
back in to watch Isaac's performance and then I went backstage 
to talk to Isaac. And then when I came out, Major Harris was 
off and the other security guard was on. And he was, like, the 
joke about I am the guy that controls the butter. Yeah. So it 
would have been nice to see the Kennedy Center.
    Mr. Kaiser. We would love to take you on a tour. I will 
take you personally if you will come with me. We do, of course, 
maintain a great deal of security, as you can appreciate that 
security of the building is of paramount importance to us in 
this environment.
    Mr. Cohen. I understand that. But I am--you know, I am not 
one of those guys that do bad things.
    Mr. Kaiser. I am sure that is true.
    Mr. Cohen. Yeah. Thank you. Madam Chair asked about naming 
and you said--is there anything in your bylaws or charter 
about--or anything Congresshas passed about naming theaters?
    Mr. Kaiser. You know, I honestly don't know if it is in 
anything Congress has passed. We just take it as given that we 
have no ability to name any space in the Center.
    Mr. Cohen. Of course, the Congress has that ability.
    Mr. Kaiser. But we don't have an ability to take a private 
contribution and name a space to thank the donor for that 
contribution. We just take that as given and so it is just 
never considered.
    Mr. Cohen. I think that is a wonderful policy because I 
think that would be gauche, to just be craven to money, which 
so many groups have to be. But a government group doesn't have 
to be craven to money, unless it be Congress.
    Mr. Kaiser. We appreciate that we are first and foremost a 
Presidential memorial, and we do not think it would be fitting 
for a Presidential memorial to be naming spaces.
    Mr. Cohen. What do you think if the Presidential memorial 
named the--and let me see where I had it here--the American 
Film Institute building or one of the building--or the Theater 
Lab and named it in honor of Ronald Reagan? Wouldn't that be a 
good idea, one of the most famous actors ever--theater person, 
motion picture deal President who did a great job with all of 
those programs there honoring folks? I mean, when he honored 
people at the Kennedy Center, it was really something. The 
honorees knew him and they dug it, and I think they called him 
"Dutch" or whatever they called him, and they rode off into the 
sunset together. Wouldn't that be cool?
    Mr. Kaiser. I feel like that is not in my pay level. I 
would leave that to Congress to decide what they want to name 
at the Kennedy Center.
    Mr. Cohen. That is something we should consider, a good 
bipartisan thing. And I may put it in. Which do you think would 
be the--I know it is above your pay level, but let us just--
right now, which of those is more a theater that would be 
appropriate for Ronald Reagan.
    Mr. Kaiser. Again, I would hate to speculate in this 
hearing. I would prefer to leave that to my board.
    Mr. Cohen. Well, you are speaking to your board. Yeah. 
Which would be more appropriate as a movie theater place where 
they show movies more likely, or film?
    Mr. Kaiser. In fact, the American Film Institute, which did 
have a theater at the Kennedy Center, they removed that theater 
and built their own facility in Silver Spring. That would be a 
great thing to name for Ronald Reagan.
    Mr. Cohen. We are going to put that in and I hope that 
Madam Chair would join me in naming the American Film Institute 
Theater there for Ronald Reagan, and we could be bipartisan on 
that. And I think it would be most appropriate.
    I don't think there was a President since John Kennedy that 
had such an appreciation for the arts, of film, of talents like 
that. I mean, certainly that was their crowd.
    And then it might be appropriate to name something like the 
Opera House for Jacquelyn Kennedy Onassis. That wouldn't be 
something that you would think would be untowards in such a 
house. She was really the source of John Kennedy's appreciation 
for the arts.
    Mr. Kaiser. Absolutely.
    Mr. Cohen. Behind every great man is what?
    Mr. Kaiser. A great woman.
    Mr. Cohen. You got it. You got it. Your pay scale is higher 
than you think. Are you married?
    Mr. Kaiser. No, I am not, sir.
    Mr. Cohen. Well, I thought that was a good answer. I 
thought your wife--I'm not married either, but that is a good 
husband answer. But we know it. But I think those are both 
things we could do. And I don't know if they should come out of 
this Committee, but certainly Ronald Reagan on the American 
Film Institute, and, at the same time, we might do the Opera 
House for Jacquelyn Kennedy. Jacquelyn Kennedy would be most 
appropriate to be remembered there. And I think there really 
should be a commissioning of a bust of her to be in the same 
building as John Kennedy. I think it would do a lot for the 
Kennedy Center, and I think when people think of the arts, they 
really think of Jacquelyn Kennedy.
    And I will look forward to coming over and taking a tour. 
It would be nice to kill two birds with one stone because our 
time is valuable and I appreciate it. But really to be honest, 
it was not only security, it was kind of the attitude.
    Mr. Kaiser. Well, I apologize for that.
    Mr. Cohen. You didn't know about it. It was not your fault. 
It was a private security guard. That is sometimes a problem 
you have when you do this rent-out stuff, this privatization 
scene. You get people that don't have respect for necessarily 
the institution and/or the authorizing entity that employs them 
indirectly, but only for their direct supervisor. And they 
don't have that institutional feeling. And if you get me the 
list of folks that you all do your--where you do things in 
Memphis and Tennessee, I would certainly appreciate it.
    Mr. Kaiser. We will be happy to do that, sir.
    Mr. Cohen. Thank you, Mr. Kaiser. Thank you, Madam Chair.
    Ms. Norton. And just for the record, the history of naming 
of the Eisenhower Theater had nothing to do with--it was during 
a time when Democrats were in power. It was a great tribute to 
the President, but nobody was trying to do something political. 
The National Cultural Center had been formed under President 
Eisenhower and that was the first National Cultural Center. So 
it was felt by the Congress that it was appropriate to have a 
theater named for President Eisenhower.
    I think the American people have respected the fact that 
this is a Presidential memorial and that this is a slain 
President, and that is all you have to say. And we just--I 
don't want to get into naming anything, frankly, because most 
things are named after people who are dead. I would rather just 
go forward and deal with the Kennedy Center, which is very 
alive and bubbling I must say. And I have some questions about 
that.
    I am about to introduce a bill, after a great deal of 
discussion with the National Park Service and the Smithsonian, 
to move the Mall toward being a living mall. This stretch of 
land out there, it is all I can call it; if it were in any 
other great city, some use would have been made of it; there 
would be little places where you could eat. Instead of a fast 
food place, particularly--because it is surrounded by cultural 
institutions, some of that culture would have been brought to 
the outside. I mean, there are all kinds of things that one can 
think of just because of where it is located.
    Well, I am pleased to see that you have brought the Kennedy 
Center and its performances outside. They are important because 
it can seem a place that is foreboding. Maybe I can't afford to 
go there, maybe that is really for Presidential events or 
cultural events of that kind. It is very good that you have 
done that. I would like to see, for example, notions like 
something is coming. It may be a musical event to the Kennedy 
Center, it may be a play.
    Here is Eleanor Holmes Norton talking off the top of her 
head. So I will have to talk to the grand master on this. 
Whether or not, for example, a short scene from a play, people 
were told is going to be out on the Mall. It takes 15 minutes 
and you will get a taste of a cultural institution--by the way, 
you might take some people who want to come who would not 
otherwise come, not to mention musical events. Even if a small 
number of people--I don't know why there aren't jazz quartets 
or string quartets out there at lunchtime so people can bring 
their own lunch. I wonder if you think--quite apart from the 
quite ambitious programs you have brought out on to the Mall, I 
wonder if you think that there is room to bring a taste of what 
is in the Kennedy Center out on the Mall were such a program to 
be initiated by the Smithsonian.
    Mr. Kaiser. Surely, I think that would be doable. From our 
experience working outdoors--and as you mentioned, we do a good 
deal outdoors now. In this environment, music works much more 
easily outside than the spoken word. So I would want to advise 
that one do musical events as opposed to plays. And what I 
would suggest that it be music that is of the louder variety 
rather than of the quieter variety, because you just don't hear 
it as well outdoors.
    Ms. Norton. Let me ask you about--I am also on the Homeland 
Security Committee, and everyone with respect to any 
institution in Washington has to perhaps think more deeply 
about that than if located elsewhere. Let me ask you specifics 
about how you would treat an event happening while something is 
in progress at the Smithsonian. Suppose you had notification of 
an event of some kind.
    Mr. Kaiser. Well, we have----
    Ms. Norton. That is related to terrorism. Maybe we don't 
know whether it is, but that is what we have, is notice of some 
kind of event and you have got people in the Kennedy Center, 
how would you----
    Mr. Kaiser. There are several answers to that. Firstly, all 
of our ushers are trained in emergency evacuation procedures so 
that we are experienced in evacuating the Center in the case of 
that need. We have an emergency response team of senior staff 
who are responsible, who are on essentially a network and 
responsible for handling emergency responses in given areas of 
the building. And then we have our security staff who manages 
all of this activity.
    One of the reasons I mentioned that we put in a whole new 
loud speaker system, it gives us an ability throughout the 
building to talk to everyone in the building, which we didn't 
have prior to 9/11. So we have made great strides in the last 6 
years in trying to address these very issues.
    Ms. Norton. I think it is a very difficult issue for 
someone in your position to even contemplate. I don't 
anticipate it. I know that when Tractor Man appeared, what we 
saw was a mass self-evacuation. And I don't think that we on 
Homeland Security, the District of Columbia, or national 
security officials have done enough to encourage people to stay 
in place.
    I think that if anybody went running out of the Kennedy 
Center at a time when there was an event, that he would be in 
probably greater danger than if not. Now, it is hard for me to 
think of an event, other than the building coming down on fire, 
for example, or if it was an event that was citywide, where you 
would be in better shape trying to get out of your garage or 
trying simply to get out of your location. But I don't think 
that with all we know about evacuation, that is obviously the 
first thing that anyone focuses on, because the first thing you 
have got to think about is a fire in your own place. I am not 
sure, given the number of institutions all centered in downtown 
Washington, whether or not we have thought deeply enough about 
the immediate response to an event, whether that event is a 
bomb or some kind of a biological or nuclear event.
    Mr. Kaiser. If I could, Madam Chair, let me just add to my 
comments that the reason I talk about evacuation is that our 
biggest fear has to do with events taking place in our garage. 
As you know, our garage is underneath the building. So getting 
out of the building is a priority in a great many of the 
scenarios that one can draw. But I should say that we had 
completed a set of procedures for various types of incidents. 
So we have formal policies for various types of incidents, 
including a stay-in-place policy. So I don't want to say that 
all of our drills and all of our discussion has to do with 
leaving, but my biggest concern has to do with something that 
might happen underneath the facility.
    Ms. Norton. With respect to fire safety, if there were a 
fire or gases of some kind, I would have similar concerns about 
everybody rushing to their cars. How does one deal with some 
kind of electrical fire or other--or other event generated 
within the Center itself, since most people I guess have 
arrived by car.
    Mr. Kaiser. When we complete our life-safety program on the 
Roof Terrace, which we will do over the next 2 years, then the 
entire building will be sprinklered and will have a life-safety 
system in place so that we can deal with an event in one area 
versus another area.
    Ms. Norton. Now, the entire building is not sprinkled yet?
    Mr. Kaiser. We are embarking this coming fiscal year that 
starts Monday on the last piece, which is the Roof Terrace 
level. That would have been completed this coming year as 
opposed to initially this coming year, except for the 
continuing resolution that limited the capital funding 
available to us. So we will complete the Eisenhower life-safety 
project in the next 12 months and the Roof Terrace project in 
the next 24 months. And then we will be complete.
    Ms. Norton. This would be a matter of the first priority, I 
would hope.
    Mr. Kaiser. It is absolutely our first priority, which is 
why it is the first thing. Once the continuing resolution is 
over, we are right on it.
    Ms. Norton. I have one final question and that is the 
Kennedy Center one evening after--Washington is still in some 
ways the one-horse town it was when I decided after high school 
that I really had to see what the real world was like on the 
way to school. It was a small-time southern town, had no 
culture. Indeed what culture there was when I was a kid, was 
segregated. It was a segregated town. Of course, it didn't have 
any culture for the white folks either. It was a town that was 
without culture.
    The fact is it has got fine restaurants, it has got a great 
deal of culture, its theater is first rate. However, after one 
goes to the theater--and I go to the--one of my favorite 
pastimes is going to a wonderful little theater here. Unlike 
New York, finding a place to eat is almost impossible. That is 
really a sign of a town that has not arrived. People, of, 
course work hard in Washington, so most just go to, you know, 
and have a nice dinner ahead of time, and you do that in New 
York and some people do. But there are always a zillion places 
to go. It is a big city. It is a different city. There is a 
Roof Terrace--first of all, I didn't even--somebody had to tell 
me we think something--you can still get served there. I went 
and I could. And I found it was quite delightful. But I don't 
know how anybody would have known it was there. I didn't see it 
advertised even on the premises much for being open for dinner. 
I had no sense that they were used to receiving guests after 
the theater right there in the Kennedy Center.
    I don't understand how it supports itself if it doesn't in 
fact tout its availability, particularly in a section of the 
city where there is noplace else to eat. You have got to make 
me understand the thinking behind the restaurant that I found I 
went to like a blind woman following, the bread crumbs. You 
will find your way to a place to eat, even in the Kennedy 
Center.
    Mr. Kaiser. We do advertise on the screens in the Hall Of 
Nations and Hall of States about the availability. It is on our 
Web site and it is in all the mailings that we do, and our 
mailings go out to about 300,000 people. But what we have 
found--and it could be just inadequate advertising--but we have 
found that most people in Washington after a show ends at 10:00 
at night or let's say at 10:30, they want to go home versus 
going out to eat.
    Ms. Norton. I implore you, Mr. Kaiser, to assume that there 
would be--you can't assume it unless--if it doesn't work, it 
doesn't work. And it was open. But the people who--and it is 
true that many people come from the suburbs and maybe they have 
to get home. But I can't believe that with 3 million people 
living here and in the suburbs, there would not be a clientele 
to go there If there was something on the premises you could go 
to. You are already parked, you didn't have to go downtown and 
find yet another place to park.
    Mr. Kaiser. We will endeavor to do a better job of 
marketing the availability of the restaurant after 
performances.
    Ms. Norton. How late is that restaurant open?
    Mr. Kaiser. It is usually open until after the last curtain 
and then enough time for people to come up and order, and then 
whenever they complete their meal.
    Ms. Norton. I do want to tell you if, in fact, there is any 
notice as one comes to the Kennedy Center on either side where 
the theaters are located, I have never seen them. So I would 
only ask that there be better notice and maybe an easel that 
might say after dinner, try----
    Mr. Kaiser. We will do a better job.
    Ms. Norton. Is that supported entirely by--as every other 
restaurant would be?
    Mr. Kaiser. The restaurants are franchises. We have a 
franchiser who we have a contract with. And we receive a 
portion of their proceeds. They are actually responsible for 
their own marketing, although we do a great deal of marketing 
for them.
    Ms. Norton. If you have a tete-a-tete, given your own 
prowess at fundraising, with them about their marketing just a 
little better, there might be some of us who are starved 
because we work late. That is typical of people in the Federal 
Government, and it is an unmet clientele that--or potential 
clientele that is looking for food.
    Mr. Kaiser. I will work on it. I promise.
    Ms. Norton. Mr. Graves? Thank you very much, Mr. Kaiser.
    Mr. Kaiser. Thank you, Madam Chair.
    [Whereupon, at 11:00 a.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
